               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Response to Bicameral Task Force
           on Climate Change




                                              April 25, 2013

Report Number HR-MA-13-002
                                                                            April 25, 2013

                                               Response to Bicameral Task Force on
                                                                   Climate Change

                                                         Report Number HR-MA-13-002



BACKGROUND:
On February 25, 2013, the co-chairs of        the Energy Independence and Security
the Bicameral Task Force on Climate           Act include requirements on energy
Change requested help in assessing            consumption and greenhouse gas
whether the U.S. Postal Service is doing      emissions that apply to the Postal
everything it can to confront the threat of   Service. The Postal Service’s
climate change.                               performance is generally on track to
                                              meet the legislative requirements of
The task force asked us to (1) identify       these laws related to climate change,
the existing requirements in legislation,     but it is not on track to meet
regulation, executive order, and other        requirements for greenhouse gas
directives that apply to the Postal           emissions and petroleum fuel
Service; (2) assess whether the Postal        consumption reductions. Additionally,
Service is meeting those requirements;        the Postal Service has established its
and (3) make recommendations for              own policies aimed at reducing
improving performance if the Postal           greenhouse gas emissions and making
Service is not fully meeting the              the nation more resilient and it has goals
requirements. Also, they asked us to          in place to accomplish them.
assess (1) the authorities the Postal
Service has to reduce emissions, (2) the      WHAT THE OIG RECOMMENDED:
Postal Service’s authorities to make the      This report is provided for information
nation more resilient to the effects of       only. We offered no formal
climate change, and (3) the most              recommendations and no management
effective additional steps the Postal         action is required. However, in response
Service could take to reduce emissions        to the request for recommendations for
or strengthen resiliency.                     improving performance, we suggested
                                              the Postal Service focus on reducing
 We did not perform a comprehensive           contract transportation emissions and
review of the Postal Service's progress       enhance strategies outlined in its draft
in meeting legislative requirements on        2012 Strategic Sustainability
climate change. Our response is based         Performance Plan. We also suggested
on the best information available and is      the Postal Service replace its aging
intended solely for the use of the task       delivery fleet with fuel efficient vehicles
force.                                        using new technologies as soon as
                                              financial and legislative constraints have
WHAT THE OIG FOUND:                           been mitigated.
The National Energy Conservation              Link to review the entire report
Policy Act, the Energy Policy Act, and
April 25, 2013

MEMORANDUM FOR:             Thomas G. Day
                            Chief Sustainability Officer




FROM:                       Michael A. Magalski
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Response to Bicameral Task Force on Climate Change
                            (Report Number HR-MA-13-002)

Attached is a copy of our response to a request from the co-chairs of the Bicameral
Task Force on Climate Change to assess whether the Postal Service is doing
everything it can to confront the threat of climate change. (Project Number
13YO015HR000). This report is provided for information only and requires no
management action.

At the request of the task force, we (1) identified the existing requirements in legislation,
regulation, executive order, and other directives that apply to the Postal Service; (2)
assessed whether the Postal Service is meeting those requirements; and (3) made
recommendations for improving performance. Additionally, we assessed (1) the
authorities the Postal Service has to reduce emissions, (2) the Postal Service’s
authorities to make the nation more resilient to the effects of climate change, and (3) the
most effective additional steps the Postal Service could take to reduce emissions or
strengthen resiliency.

We were not engaged to, and did not perform, a comprehensive review of the Postal
Service's progress in meeting legislative requirements related to climate change. We
provided responses based on the best information available at the time of this request.
The information is intended solely for the use of the Bicameral Task Force on Climate
Change.

We appreciate the cooperation and courtesies provided by you and your staff. If you
have any questions or need additional information, please contact Lorie Nelson,
director, Human Resources and Support, or me at 703-248-2100.

Attachments
Response to Bicameral Task Force on Climate Change   HR-MA-13-002



cc: Ronald A. Stroman
   Corporate Audit and Response Management
                                                     ATTACHMENT

Response to Bicameral Task Force on Climate Change   HR-MA-13-002
                                                                             ATTACHMENT

Response to Bicameral Task Force on Climate Change                           HR-MA-13-002



Introduction

Climate change poses risks to many environmental and economic systems — including
agriculture, infrastructure, ecosystems, and human health — and presents a significant
financial risk to the federal government. The Government Accountability Office found
the federal government is not well organized to address the fiscal exposure presented
by climate change, partly because of the inherently complicated,
cross-cutting nature of the issue. This document responds to a February 25, 2013,
request from the cochairs of the Bicameral Task Force on Climate Change for help in
assessing whether the U.S. Postal Service is doing everything it can to confront this
threat.

The task force has asked that we (1) identify the existing requirements in legislation,
regulation, executive order (EO), and other directives that apply to the Postal Service,
(2) assess whether the Postal Service is meeting those requirements, and (3) make
recommendations for improving performance if it is not fully meeting the requirements.
Additionally, we are to assess (1) the authorities the Postal Service has to reduce
emissions, (2) the authorities to make the nation more resilient to the climate change,
and (3) the most effective additional steps the Postal Service could take. Our response
to this request follows.

Part I. Existing Requirements and Progress

Existing Requirements Applicable to the Postal Service

There are several policies related to energy consumption and greenhouse gas (GHG)
emissions that apply to the Postal Service. The National Energy Conservation Policy
Act (NECPA) serves as the underlying authority for federal energy management goals
and the foundation for most current energy requirements. NECPA, signed into law in
1978, initially did not apply to the Postal Service. However, the Energy Policy Act
(EPACT) of 1992 amended NECPA such that certain provisions now apply to the Postal
Service. In addition, NECPA has been updated and amended by subsequent laws and
regulations, including EPACT of 2005 and the Energy Independence and Security Act
(EISA) of 2007 that also apply to the Postal Service. Following is a overview of the
applicable provisions.

EPACT 1992

   Amends provisions of NECPA dealing with federal energy management. EPACT
    required the Postal Service to follow provisions of NECPA §166.

   Requires the Postal Service, to the maximum extent practicable, meet the federal
    energy management goals for federal buildings.
                                                 1
                                                                                                    ATTACHMENT

Response to Bicameral Task Force on Climate Change                                                  HR-MA-13-002



EPACT 2005

   Revises energy reduction goals and performance requirements for federal buildings
    created by NECPA, including: a timetable for reduced energy consumption; federal
    procurement guidelines for energy efficient products; and extension of federal
    agency authority to enter into energy savings performance contracts.

       Requires vehicles acquired by the federal government, including the Postal
        Service, to use alternate fuel unless granted a waiver by the U.S. Department of
        Energy.

EISA 2007

   Revised the 20-percent energy reduction requirement originally established by
    EPACT 2005 to 30-percent reduction in building energy consumption by 2015. The
    Postal Service is required to meet these requirements to the maximum extent
    practicable.

   Amended EPACT 1992 by prohibiting federal agencies, including the Postal Service,
    from acquiring a light duty, motor vehicle or medium duty, passenger vehicle that is
    not a low GHG emitting vehicle.

   Requires Federal fleets, including the Postal Service fleet, to reduce petroleum
    consumption by 20 percent and increase alternate fuel consumption by 10 percent
    annually by 2015.

   Requires training for contracting officers in contract negotiation and management on
    energy contracts.

The Postal Service has also adopted as part of its energy goals many of the
requirements of EO 13514.1 EO 13514, Federal Leadership in Environmental, Energy,
and Economic Performance, that requires agencies measure, manage, and reduce
GHG emissions toward agency-defined targets.2 EO 13514 also requires additional
improvements in water efficiency by 2020.

Progress Towards Meeting Requirements

The Postal Service has established targets in line with applicable requirements in order
to lead the organization toward a more sustainable future. Those targets include goals
for reduction in GHG emissions and facility energy and fuel consumption. Table 1 lists
those goals and provides the Postal Service's status at meeting those goals.

1
  EOs generally do not apply to the Postal Service because of the Postal Service's unique mission and status as a
non-appropriated federal agency. However, the Postal Service typically complies voluntarily.
2
  The Postal Service defined its greenhouse gas Scope 1 and 2 reduction target as a 20percent reduction by 2020.
Similarly, the Postal Service has a Scope 3 reduction target of 20%.


                                                         2
                                                                                                      ATTACHMENT

Response to Bicameral Task Force on Climate Change                                                    HR-MA-13-002



                     Table 1. FY 2012 Postal Service Sustainability Metrics

                                                         FY 2012 %
                                       Baseline         Change from
    Metric           Goal              Year               Baseline             Goal Status              Criteria
                  20% GHG
               Scopes 1 and 2
                 Reduction by
                     2020                  2008           ( 19.3%)4             On Target             EO 13514
              20% GHG Scope
                3 Reduction by
GHG3                 2020                  2008               ( 3.7%)           Off Target           EO 13514
                 30% Facility                                                                          Postal
              Energy Reduction                                                                      Sustainability
                   by 2015                 2003            ( 33.9%)             On Target               Goal
                 30% Facility
               Energy Intensity
Facility         Reduction by
Energy               2015                  2003            ( 32.4%)             On Target             EISA 2007
               20% Petroleum
                Fuel Reduction                                                  Off Target
                   by 2015                 2005               4.6 %                                   EISA 2007
                 10% Annual
               Alternative Fuel
Fuel          Increase by 2015             2005               140.7%            On Target             EISA 2007
                  10% Water
                 Consumption                                                                           Postal
                 Reduction by                                                                       Sustainability
                     2015                  2007            ( 38.1%)             On Target               Goal
                  26% Water
                   Intensity
Water         reduction by 2015            2007               (30.9%)           On Target             EO 13514
Source: Postal Service Office of Sustainability.

Recommendations for Improvement

The Postal Service’s performance generally is on track to meet the existing legislative
requirements related to climate change, except the nonbinding EO 13514 requirement
to reduce Scope 3 GHG emissions toward agency-defined targets, and the EISA 2007
requirement to reduce petroleum fuel consumption by 20 percent. While we have not
completed any specific reviews on the Postal Service's progress in meeting legislative
requirements related to climate change, we provide the following information:


3
  Scopes 1 and 2 GHG emissions include direct emissions from combustion in vehicles and facilities, and indirect
emissions from purchased electricity and steam used in facilities. Scope 3 GHG emissions include all other indirect
emissions.
4
  Parentheses indicate a percentage decrease from baseline.


                                                          3
                                                                                                       ATTACHMENT

Response to Bicameral Task Force on Climate Change                                                      HR-MA-13-002



Greenhouse Gas Emissions

As of fiscal year (FY) 2012, the Postal Service is on target to reduce its scope 1 and 2
greenhouse gas emissions by 20 percent by 2020. However despite a reduction from
FY 2008, the Postal Service is not on target to reduce its scope 3 GHG emissions by 20
percent by 2020. Scope 3 GHG emissions consist of indirect sources, including
contracted transportation services, employee business travel, and contracted waste and
wastewater disposal. The largest contributor to Scope 3 emissions is contract
transportation. We suggest that the Postal Service focus on this area, as a reduction
here would have the largest impact. However, to meet the goal, the Postal Service
should also enhance strategies outlined in its draft 2012 Strategic Sustainability
Performance Plan (SSPP), which includes:

   Reducing contracted transportation petroleum fuel use 20 percent by FY 2020.
   Minimizing petroleum use from federal employee travel.
   Minimizing contracted waste disposal.
   Minimizing transmission and distribution losses by reducing electricity consumption.

Petroleum Fuel Consumption

Since FY 2005, overall petroleum fuel consumption has increased by 4.6 percent.
During this time, the Postal Service reduced some petroleum fuel use mostly through
carrier optimal routing5 related to the introduction of the Flat Sequencing System.6 The
Postal Service has also worked to emphasize driving practices that reduce fuel
consumption. Despite these efforts, overall fuel consumption has increased compared
to the baseline. Reducing petroleum fuel use presents a challenge due to the addition
to the delivery network of nearly 1 million new addresses each year, as well as an aging
fleet of delivery vehicles.

The Postal Service’s financial condition, as well as legislative constraints, restricts its
ability to continue to move forward with reduction of petroleum fuel consumption. The
Postal Service is up against its statutory limit for borrowing and is expected to continue
to have liquidity shortfalls at least through 2013. The Postal Service will be limited in its
ability to meet established goals without legislative actions that would address the
Retiree Health Benefits Fund prefunding requirement, closure/consolidation of facilities,
and delivery schedules. As soon as financial and legislative constraints have been
mitigated, we recommend the Postal Service replace its aging delivery fleet with fuel
efficient vehicles using new technologies.



5
  Carrier optimal routing is a computer software application that creates compact, contiguous and safe city carrier
delivery routes. It also creates optimal travel paths for the carrier routes which reduces unnecessary travel and
results in savings in work hours, fuel and vehicle costs, and ultimately captures energy savings.
6
  Flat Sequencing System is a type of processing equipment that sorts flat-sized mail pieces in delivery point
sequence at high speeds.


                                                           4
                                                                                  ATTACHMENT

Response to Bicameral Task Force on Climate Change                                HR-MA-13-002

Part II. Authorities and Additional Steps

In the context of our response, we interpret 'authorities' to refer to the Postal Service's
ability to establish its own policies and goals aimed at reducing GHG emissions and
making the nation more resilient.

Authorities to Reduce Emissions

As an independent government agency, the Postal Service can enter into contracts, and
can buy and sell facilities, real property, equipment, and vehicles.7 The Postal Service
not only has the authority to reduce emissions, it also has goals to make this happen.
The Postal Service is on target to achieve many of the nonbinding goals in EO 13514.

Authorities to Strengthen Resiliency

The Postal Service included a policy statement as an appendix to its SSPP that
discusses its approach to climate change adaptation. This topic pertains to an agency’s
ability to respond to the effects of climate change. The Postal Service recognizes that
the scope, severity, and pace of future climate change impacts are difficult to predict,
but that it is clear that potential changes could burden and disrupt its ability to fulfill its
mission, which is to provide universal mail service. According to the policy statement , it
will consider potential climate change impacts when undertaking long-term strategic and
financial planning and when making relevant decisions affecting policies, planning,
resource allocation, and operations. As these impacts take place, the Postal Service
must balance climate change impacts with its ability to continue mail processing and
delivery operations.

Additional Steps

The Office of Sustainability suggests that the Postal Service's two biggest areas of
opportunity to further reduce Scope 1 and 2 GHG emissions are replacement of the
fleet of 20 year old plus vehicles with more fuel efficient models, and energy reduction
projects, such as upgrades to heating, ventilation, and air conditioning and lighting
systems. However, the Postal Service cannot take these actions due to a lack of
available capital funding. The Postal Service is working to deploy cross functional
teams, referred to as "Green Teams," consisting of postal employees with a wide range
of specialties who implement low and no cost efforts to reduce resource utilization. They
focus on five sustainability target areas – energy, waste, fuel, water, and consumables
spending. To reduce Scope 3 emissions, the Postal Service will continue to focus on the
optimization of highway contract routes and air transportation. For climate change
adaptation, the Postal Service plans to take a strategic look at critical infrastructure,
including processing centers, data centers, and delivery and retail units.



7
    39 U.S.C. §§ 401(3), (5), and (6); )2006.


                                                 5
                                                                                  ATTACHMENT

Response to Bicameral Task Force on Climate Change                                 HR-MA-13-002

The OIG has issued a number of audit reports related to facility energy consumption
and GHG emissions, in which we have recommended additional steps the Postal
Service could take to further reduce emissions or strengthen resiliency. Table 2 lists the
relevant reports and summarizes the corresponding recommendations. The Postal
Service has put into place many of the recommendations.

             Table 2. Prior OIG Audit Reports Relevant to Climate Change

                                           Final
                         Report           Report
   Report Title         Number              Date               Recommendation(s)
Estimated Supply      CA-MA-08-001       1/10/2008   1. Develop standardized procedures for
Chain                                                   file management and payment tracking
Management                                              for waste, trash, and recycling services
Impact                                                  contracts.
Associated with
Waste, Trash, and                                    2. Develop tracking mechanisms that allow
Recycling Services                                      for payment reports by contract number
                                                        for waste, trash, and recycling services
                                                        contracts.

                                                     3. Develop reports and procedures that
                                                        adequately account for recycling
                                                        contract revenue.

                                                     4. Provide contracting officer
                                                        representatives for waste, trash, and
                                                        recycling.

                                                     5. Service contracts with adequate
                                                        policies, procedures, and instructions to
                                                        manage these complex contracts.




                                                 6
                                                                                  ATTACHMENT

Response to Bicameral Task Force on Climate Change                                HR-MA-13-002

                                           Final
                         Report           Report
   Report Title         Number             Date                Recommendation(s)
Facilities Energy     DA-AR-08-004       4/9/2008    1. Finalize and publish a National Energy
Management                                              Management Plan. This plan should
Strategy                                                establish a long-term vision and goals
                                                        that encompass facilities referenced in
                                                        the EISA of 2007.

                                                     2. Update the Facility Energy Management
                                                        Policy and Guide. This should clarify the
                                                        organizational structure for carrying out
                                                        energy management responsibilities.

                                                     3. Continue to develop systems for
                                                        reporting actual energy consumption
                                                        baselines and progressing toward
                                                        energy reduction goals. In this regard,
                                                        management should consider
                                                        expanding electronic energy billing
                                                        interfaces to collect actual energy
                                                        consumption data or develop other long-
                                                        term solutions.

Postal Service        DA-MA-08-003       9/26/2008   1. Amend the National Energy
National Energy                                         Management Plan to:
Management Plan
                                                       a. Include the remote building
                                                            management system pilot.

                                                       b. Clarify procedures for reporting
                                                           baseline information.

                                                       c. Include key performance metrics and
                                                            timeframes in an appendix.

Sustainability:       DA-MA-09-001       6/12/2009   1. Reinforce energy and recycling polices
Promoting Energy                                        with installation managers.
and Recycling
Compliance                                           2. Require periodic talks to employees on
                                                        energy and recycling practices.




                                                 7
                                                                                   ATTACHMENT

Response to Bicameral Task Force on Climate Change                                  HR-MA-13-002

                                           Final
                         Report           Report
   Report Title         Number              Date              Recommendation(s)
Sustainability:       DA-MA-10-001       1/28/2010   1. Issue written guidance to installation
Promoting Energy                                        managers to encourage the use of more
and Recycling                                           remote building management systems.
Compliance Fiscal
Year 2009                                            2. Issue written guidance to installation
                                                        managers and provide periodic service
                                                        talks to employees to reinforce
                                                        awareness of energy and recycling
                                                        policies.

Delivery Vehicle      DA-AR-10-005       6/16/2010   1. Replace maintenance intensive vehicles
Replacement                                             beginning in FY 2011.
Strategy
                                                     2. Re-emphasize to vehicle maintenance
                                                        and district managers the reinvestment
                                                        threshold, the importance of completing
                                                        Postal Service Forms 4587, Request to
                                                        Repair, Replace, or Dispose of Postal-
                                                        Owned Vehicle, to include cumulative
                                                        costs, and the need to obtain
                                                        required approvals as detailed in
                                                        Handbook PO -701, Fleet Management.

                                                     3. Monitor maintenance intensive delivery
                                                        vehicles at the area level.

Nationwide Facility   DA-AR-11-009       8/26/2011   1. Use the Building Operators
Optimization                                            Management Association or comparable
                                                        standards to determine leasable space
                                                        and update the Postal Service’s Facility
                                                        Planning standards for determining
                                                        earned space. These factors should be
                                                        the basis for calculating the extent of
                                                        excess space in the management
                                                        reporting system.

                                                     2. Revise the vice president, Facilities,
                                                        Report Card to include measurement in
                                                        square footage terms and seek to
                                                        include facility optimization goals as part
                                                        of the National Performance
                                                        Assessment.




                                                 8
                                                                                  ATTACHMENT

Response to Bicameral Task Force on Climate Change                                HR-MA-13-002

                                       Final
                          Report      Report
    Report Title         Number        Date                    Recommendation(s)
Integrating            DA-MA-12-001 12/19/2011       1. Establish and monitor performance
Sustainable                                             metrics for new alternative energy
Energy in Facilities                                    systems.

                                                     2. Continue to monitor opportunities and
                                                        economic feasibilities for alternative
                                                        energy systems.

Benchmarking           CA-MA-12-002      8/8/2012    Develop sustainability contract clauses and
Sustainability                                       use, as guidance, those clauses provided
Contracting                                          by benchmarked agencies that are
Practices                                            consistent with the Postal Service’s
                                                     sustainability goals. Training should be
                                                     provided to contracting officials and
                                                     relevant business partners, once the
                                                     clauses are implemented.




                                                 9
